                                                                                Report No. DODIG-2013-073




              I nspec tor Ge ne ral
                                                       Department of Defense

              APRIL 25, 2013




                     Use of Defense Logistics Agency
                     Excess Parts for High Mobility
                     Multipurpose Wheeled Vehicle
                     Depot Repairs Will Reduce Costs




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Use of Defense Logistics Agency Excess Parts for High
                                       Mobility Multipurpose Wheeled Vehicle Depot Repairs
                                       Will Reduce Costs


April 25, 2013                                              Recommendations Continued

Objective                                                   Also, the Director, DLA, should direct the Commander, DLA
                                                            Land and Maritime, to:
We evaluated High Mobility Multipurpose Wheeled
Vehicle (HMMWV) repair parts supply chain                      •	 perform periodic inventory reviews of DLA-owned
management at Red River Army Depot. Specifically, we              HMMWV repair parts on the Integrated Logistics
reviewed Defense Logistics Agency (DLA) inventory                 Partnership contract,
levels, DLA annual customer demand, and the depot
consumption of HMMWV repair parts to determine                 •	 develop a drawdown plan for the excess inventory
whether the supply chain was cost-effective.                      identified and incorporate the plan into the final
                                                                  option year of the Integrated Logistics Partnership
                                                                  contract and any future HMMWV support contracts at
Finding                                                           Army maintenance depots, and
DLA Land and Maritime did not cost-effectively manage
                                                               •	 provide all HMMWV repair part consumption data to
118 HMMWV repair parts valued at $11.1 million
                                                                  supply planners.
while purchasing these parts from AM General, LLC for
$17.6 million. This occurred because DLA Land and
Maritime officials did not review DLA-owned inventory       Comments
at key contract decision points to maximize use of          Comments from the Deputy Director, DLA Logistics
its own stock. As a result, we identified $9.7 million      Operations, were responsive and met the intent of our
of excess inventory that could be used for HMMWV            recommendations. No additional comments are required.
maintenance requirements. Thus, DLA missed an               DLA stated that it would:
opportunity to improve DoD cash flow by drawing
down DLA-owned inventory before using commercial               •	 issue guidance to maximize use of inventory for
support. Furthermore, DLA incurred costs to maintain              performance-based logistics agreements,
this excess inventory.
                                                               •	 implement quarterly reviews for DLA-managed over
                                                                  procured items on the Integrated Logistics Partnership
Recommendations                                                   contract,
The Director, DLA, should issue guidance to require            •	 develop a drawdown plan for excess, and
periodic inventory reviews of DLA-owned inventory used
in performance-based logistics agreements at award of          •	 provide consumption data to supply planners for the
each contract, issuance of modifications that add new             contract.
program requirements, and exercise of option years.




Visit us on the web at www.dodig.mil

                                                                           DODIG-2013-073 (Project No. D2012-D000JA-0102.000)│ i
                   Recommendations Table
                                                          Recommendations Requiring   No Additional Comments
                               Management                        Comment                     Required

                    Director, Defense Logistics Agency                                    1, 2.a, 2.b, 2.c.




ii │ DODIG-2013-073 (Project No. D2012-D000JA-0102.000)
                                  FOR OFFICIAL USE ONLY

                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                            April 25, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
		                    COMMANDER, DEFENSE LOGISICS AGENCY LAND AND MARITIME

SUBJECT: Use of Defense Logistics Agency Excess Parts for High Mobility
	         Multipurpose Wheeled Vehicle Depot Repairs Will Reduce Costs
	         (Report No. DODIG-2013-073)

We are providing this report for your information and use. This is the first in a series of
reports that will address repair parts for High Mobility Multipurpose Wheeled Vehicles.
Defense Logistics Agency Land and Maritime did not maximize use of $11.1 million of its
inventory while purchasing parts from AM General, LLC for $17.6 million. We considered
management comments on a draft of this report when preparing the final report, and
additional comments are not required.

Comments from the Deputy Director, Defense Logistics Agency Logistics Operations, were
responsive and conformed to the requirements of DoD Directive 7650.3.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




						                                         Amy J. Frontz
						                                         Principal Assistant Inspector General
						                                            for Auditing




                      DRAFT REPORT           FOR OFFICIAL USE ONLY
                                                                                          DODIG-2013-073│ iii
iv │ DODIG-2013-073
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls_____________________________________________________________________3

Finding: Management of High Mobility
Multipurpose Wheeled Vehicles Repair
Parts Needs Improvement_______________________________________ 4
Guidance To Maximize Government-Owned Inventory_______________________________________4
Accumulation of Excess Inventory _____________________________________________________________5
Better Reviews of Inventory Levels Needed___________________________________________________7
Use of Existing Inventory Will Improve DoD Cash Flow ____________________________________ 10
Management Comments to the Finding and Our Response________________________________ 12
Recommendations, Management Comments, and Our Response__________________________ 12

Appendices
Appendix A: Scope and Methodology_ _______________________________________________________ 14
      Use of Computer-Processed Data______________________________________________________ 15
      Prior Coverage___________________________________________________________________________ 15
Appendix B: Excess DLA-Owned Inventory for 118 AM General, LLC,
First Source Repair Parts______________________________________________________________________ 17
Appendix C: Defense Logistics Agency Comments __________________________________________ 23
Acronyms and Abbreviations_________________________________________________________________ 26




                                                                                                       DODIG-2013-073│ v
Introduction




vi │U.S. Army paratroopers prepare to patrol after jumping into drop zone Sicily during a joint operational access exercise
     DODIG-2013-073
  Source: U.S. Air Force photo by Tech. Sgt. LeeAnn Sunn
                                                                                                                                    Introduction




Introduction
Objective
This is the first in a series of reports that will address repair parts for High Mobility
Multipurpose Wheeled Vehicles (HMMWV). The audit objective was to determine whether
DoD was cost-effectively managing repair parts for HMMWV. This report addresses the
Defense Logistics Agency’s (DLA) management of the HMMWV repair parts inventory
provided to Red River Army Depot (RRAD) through the Integrated Logistics Partnership
(ILP) contract with AM General, LLC (AMG). The second report will address the pricing of
HMMWV repair parts on the ILP contract.


Background
The HMMWV is the Army’s primary light tactical wheeled vehicle. As of September 2012,
the Army operated about 153,000 HMMWV. The U.S. Army 2010 Tactical Wheeled Vehicle
Strategy stated that the Army plans to sustain portions of the HMMWV fleet for an
additional 20 years through recapitalization1 and reset2 repair programs. Through both
programs, the Army has improved about 42 percent of the HMMWV fleet.


Defense Logistics Agency
DLA is DoD’s logistics combat support agency whose mission is to provide logistics and
contract management support to the military services. DLA Land and Maritime is the
supply chain manager for HMMWV repair parts and is responsible for purchasing,
managing, and coordinating shipments of these parts. DLA managed more than
10,000 HMMWV repair parts and had inventory valued at about $501 million as of
April 30, 2012. The Industrial Prime Vendor and Kitting Branch within DLA Land and
Maritime is responsible for the program management and contracting for commercial
support of HMMWV repair parts.                         DLA Distribution is a combat support agency
responsible for the receipt, storage, issue, packing, and transportation of DLA materiel,
such as repair parts.




	1	
    The recapitalization program rebuilds and upgrades vehicles to currently fielded models and returns the vehicle to near
    zero time and mileage status. According to a TACOM official, the Army’s recapitalization program began in FY 2004 and will
    continue through FY 2013. The FY 2013 National Defense Authorization Act authorized more than $271 million to continue
    the HMMWV recapitalization program.
	2	
    The reset program is a bumper-to-bumper inspection, replacement, or refurbishment of damaged parts performed on
    equipment returned from Southwest Asia. According to a TACOM official, RRAD conducted all reset program work from
    FY 2004 through FY 2012.




                                                                                                                                 DODIG-2013-073 │ 1
Introduction



                 TACOM and Red River Army Depot
                 The U.S. Army TACOM Life Cycle Management Command (TACOM) manages HMMWV
                 recapitalization and reset repair programs at various Army depots. RRAD is the Army’s
                 Center for Industrial and Technical Excellence for tactical wheeled vehicles. According to
                 a TACOM official, RRAD’s HMMWV recapitalization and reset work from FY 2004 through
                 FY 2013 will result in about 41,000 repaired HMMWVs, or about 63 percent of the Army’s
                 recapitalization and reset repair programs’ work.


                 Customer Pay Initiative and Contracts
                 In September 2004, TACOM began considering using contractor support to provide
                 services and repair parts support for HMMWV recapitalization at Army depots. DLA
                 responded to the market survey and agreed to partner with TACOM and a contractor to
                 provide HMMWV recapitalization support in a pilot initiative known as Customer Pay.3

                 The Customer Pay initiative included two unique aspects: billing at the point of
                 consumption and a dual sourcing supply chain system. Billing at the point of consumption
                 means that DLA Land and Maritime does not pay for the part until the part is provided
                 to depot personnel for use. A dual sourcing supply chain system involves assigning each
                 repair part a primary source where either Government materiel (Government first source)
                 or the contractor’s materiel (AMG first source) is to be used. The dual sourcing supply
                 chain system required AMG to price every repair part needed for the depot HMMWV
                 repair programs and to have the capability to supply Government first source parts with
                 little or no lead-time. DLA determined first source by a comparison of AMG’s quoted price
                 to DLA’s target price; the lower price was designated first source. This determination
                 considered the pricing of repair parts and impact to small businesses.

                 DLA Land and Maritime issued two firm-fixed price, performance-based contracts for the
                 Customer Pay initiative. Specifically, DLA awarded:

                                •	 Contract SP0750-06-D-9711 (Customer Pay contract) on November 1, 2005,
                                    to AMG for a base period of 1 year with two 1-year options valued at about
                                    $201 million. The scope of the contract required AMG to assume total supply
                                    chain management for specified HMMWV repair parts, including inventory
                                    management, parts acquisition, distribution, and materiel forecasting. AMG
                                    provided $79 million of the $186.2 million repair parts provided for HMMWV
                                    repair through October 2007.

                 	 3	
                        A DLA Land and Maritime official stated that in 2010 DLA changed the name of the Customer Pay initiative to the Integrated
                        Logistics Partnership.




2 │ DODIG-2013-073
                                                                                           Introduction



        •	 Contract SPM7LX-09-D-9001 (ILP contract) on November 7, 2008, to AMG as
           a follow-on contract to the Customer Pay contract. The ILP contract period of
           performance began January 16, 2009, for 1 year and had four 1-year options
           valued at about $416 million. The final option year began in January 2013. As
           of June 2012, AMG was the first source provider for 1,324 of the 2,677 repair
           parts on this contract. From October 2010 through June 2012, DLA Land and
           Maritime purchased a quantity of about 2.2 million AMG first source repair
           parts for $150 million.

The ILP contract applied to repair parts support for any variant of the HMMWV. All
HMMWV repair parts were not required at the start of the ILP contract. When HMMWV
repair programs needed support, DLA activated the purchase of the repair parts on the
ILP contract. Activation of the purchase of HMMWV repair parts occurred at contract
award or contract modification.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010 requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness in the management of DLA’s HMMWV repair parts inventory: DLA did
not assess DLA-owned HMMWV repair parts inventory at key contract decision points
to maximize use of its own stock before purchasing parts through an ILP contract.
We will provide a copy of the report to the senior official responsible for internal
controls in DLA.




                                                                                       DODIG-2013-073 │ 3
Finding




                 Finding
                 Management of High Mobility Multipurpose Wheeled
                 Vehicles Repair Parts Needs Improvement
                 DLA Land and Maritime did not cost-effectively manage 118 HMMWV repair parts valued
                 at $11.1 million. Specifically, DLA did not use its own inventory of these HMMWV repair
                 parts before purchasing them from AMG for $17.6 million. This occurred because DLA
                 Land and Maritime officials did not review DLA-owned inventory at key contract decision
                 points to maximize use of its own stock. As a result, we identified $9.7 million of excess
                 DLA-owned inventory that could have been used for HMMWV maintenance requirements.
                 Thus, DLA missed an opportunity to improve DoD cash flow by drawing down DLA-
                 owned inventory before using commercial support. Furthermore, DLA incurred costs to
                 maintain this excess inventory.



                 Guidance To Maximize Government-Owned Inventory
                 DLA selected commercial support for HMMWV repair part supply chain management.
                 DoD policies provide guidance to maximize the use of Government-owned inventory
                 when support is provided by a non-Government source. Such policies include DoD
                 Regulation 4140.1, “DoD Supply Chain Materiel Management Regulation,” May 23, 2003,
                 and DoD Instruction 4140.01, “DoD Supply Chain Materiel Management Policy,”
                 December 14, 2011. DLA did not issue its own policy implementing guidance to maximize
                 DLA-owned inventory while executing performance-based logistics agreements.

                 DoD policy provides information about stockage requirements.                                   Specifically, DoD
                 Regulation 4140.1 states that when support alternatives other than DoD stockage
                 have been selected, the DoD Components should review and adjust current materiel
                 requirements, allowing sufficient time to decrease DoD stockage and avoid unnecessary
                 acquisition, repair, or storage costs. DoD Regulation 4140.1 also identifies appropriate
                 levels for maintaining inventory operating stock, which is the quantity of materiel required
                 to sustain operations. The guidance on economic order quantities4 identifies a maximum
                 of 2 years of stock based on demand, but the guidance also describes an exception in which
                 purchases should not result in on hand inventory exceeding 3 years of operating stock.

                 DoD Instruction 4140.01 requires DoD Components to maximize use of Government-
                 owned inventory before seeking new commercial support. New commercial support could

                 	4	
                       Economic order quantities are used to minimize the cost of ordering and holding stock.




4 │ DODIG-2013-073
                                                                                                                                                                        Finding



be at contract award, contract modifications that activate the purchase of repair parts for
new repair programs, or exercise of option years. These key decision points provide an
opportunity to maximize the use of Government-owned inventory. For example, on the
ILP contract, a modification added new program requirements for HMMWV repair parts
and an opportunity to use DLA-owned inventory.


Accumulation of Excess Inventory
DLA Land and Maritime did not cost-effectively manage 118 HMMWV repair parts valued
at $11.1 million. DLA accumulated inventory in excess5 of 3 years’ operating stock for
the 118 repair parts as of June 2012. We reviewed inventory for these repair parts at
key decision points during the ILP contract. Figure 1 illustrates DLA’s accumulation of
excess inventory for the 118 repair parts from January 2009 through June 2012. This
excess inventory resulted from reductions in customer demand, repair part returns, and
inventory purchases outside the ILP contract.

Figure 1. Accumulation of Excess DLA Inventory of 118 Repair Parts


                                  140

                                  120
      Repair Parts in Excess




                                  100

                                   80

                                   60

                                   40

                                   20

                                     0
                                             Base Year  Modiﬁcation 7 Option Year 1 Option Year 2 Option Year 3                                   June 2012*
                                           January 2009 October 2009 January 2010 January 2011 January 2012

                                                                                       Key Decision Points
                               * We reviewed DLA's ending inventory as of June 30, 2012; however, this date is not a key decision point in the ILP contract.




As of June 2012, all 118 repair parts had excess inventory. Excess inventory was
accumulated at key decision points in the ILP contract for the 118 repair parts we reviewed.

	5	
      We define excess inventory as inventory exceeding 3 years of FY 2011 DLA annual customer demand quantities. DLA
      annual customer demand represents all parts requisitioned from DLA for that fiscal year. This does not include any
      contractor provided parts, such as parts provided by AMG through the ILP contract.




                                                                                                                                                               DODIG-2013-073 │ 5
Finding



                               •	 In January 2009, DLA activated 26 repair parts on the base year contract for
                                   the recapitalization and reset programs. At this key decision point, 18 of those
                                   26 repair parts had excess DLA inventory.

                               •	 In October 2009, DLA modified the contract to include repair part support for
                                   Up-Armored HMMWV maintenance. At this key decision point, 65 of 113 total
                                   activated repair parts had excess DLA inventory.

                               •	 In January 2010, DLA modified the contract to execute Option Year 1
                                   maintenance. At this key decision point, 63 of 114 total activated repair parts
                                   had excess DLA inventory.

                               •	 In January 2011, DLA modified the contract to execute Option Year 2
                                   maintenance. At this key decision point, 78 of 116 total activated repair parts
                                   had excess DLA inventory.

                               •	 In January 2012, DLA modified the contract to execute Option Year 3
                                   maintenance. At this key decision point, 110 of 116 total activated repair
                                   parts had excess DLA inventory.

                               •	 Though not a key decision point, in June 2012, DLA had 118 activated repair
                                   parts with excess DLA inventory.

                 DLA accumulated HMMWV repair parts inventory
                 in excess of DoD requirements for the 118 repair                                               DLA
                                                                                                           accumulated
                 parts while purchasing the same parts from AMG                                        HMMWV repair parts
                 on the ILP contract to support RRAD HMMWV                                          inventory in excess of DoD
                 reset and recapitalization programs. DLA Land                                       requirements for the 118
                                                                                                  repair parts while purchasing
                 and Maritime did not consider its accumulated
                                                                                                   the same parts from AMG on
                 inventory level in support of these programs. Of                                   the ILP contract to support
                 the 118 repair parts we reviewed, DLA purchased                                       RRAD HMMWV reset
                 301,066 parts for $17.6 million.                      In June 2012,                    and recapitalization
                                                                                                             programs.
                 DLA-owned inventory for these repair parts totaled
                 196,372 parts valued at $11.1 million. Based on DLA annual
                 customer demands,6 the inventory of the 118 repair parts exceeded 3 years of operating
                 stock by $9.7 million. See Appendix B for excess calculations by repair part.




                 	6	
                       DLA annual customer demand represents all parts requisitioned from DLA for that fiscal year. This does not include any
                       contractor provided parts, such as parts provided by AMG through the ILP contract.




6 │ DODIG-2013-073
                                                                                                                                             Finding



Better Reviews of Inventory Levels Needed
DLA Land and Maritime officials did not review DLA-owned inventory levels to maximize
the use of its inventory before obtaining commercial support through the ILP contract.
Both DoD Regulation 4140.1 and the ILP contract required review of current DLA
inventory levels before obtaining commercial support. Specifically the ILP contract
stated the following: “The Customer Pay team7 will assess current Government inventory
levels available for use on the production lines . . . and establish individual anticipated
contractor supplied inventory support dates based on inventory exhaustion projections
by site, for each [repair part] included on the contract.” DLA should issue guidance that
requires periodic inventory reviews of DLA-owned inventory used in performance-based
logistics agreements at award of each contract, issuance of modifications that add new
program requirements, and exercise of option years.


Limited Effort To Maximize Use of DLA-Owned Inventory
Industrial Prime Vendor and Kitting branch officials from DLA Land and Maritime
(hereafter referred to as the ILP program management office) did not conduct reviews
to maximize use of DLA-owned inventory at key contract decision points when new
commercial support was provided. The ILP program management office focused on
preventing shortages and not on reducing DLA inventory excesses for the ILP program.

The ILP program manager stated that DLA performed a one-time review of repair parts
before the first Customer Pay contract was awarded in FY 2006. However, the ILP
contracting officer and the ILP program manager further stated that DLA inventory levels
for the repair parts were not assessed when transitioning to the ILP contract. They stated
that the ILP contract was a continuation of the Customer Pay initiative and that no gap in
the period of performance existed in the transition between the two contracts.

The ILP program manager stated it was his responsibility, in conjunction with supply
planners, to monitor ILP program parts; however, his focus was to prevent RRAD stock
shortages rather than to reduce excess in DLA-owned inventory. The ILP program officials
explained that supply planners conduct ongoing reviews of repair part levels on the ILP
contract inventory. The ILP program manager stated that he takes action on monthly
shortage reports to prevent stock outs,8 but there is no comparable excess report because
supply planners are responsible for review of repair parts inventory. However, ILP supply

	 7	
    The Customer Pay team consisted of personnel from TACOM, DLA Land and Maritime (formerly known as Defense Supply
    Center Columbus) Industrial Prime Vendor and Kitting Branch, the Army depots conducting maintenance under the ILP, the
    HMMWV program office, and the contractor.
	8	
    “Stock outs” refer to when required parts are not available on time to meet production. If the right part, right quantity are
    not available before the truck exits the workstation, it is considered to be a “stock out.”




                                                                                                                                    DODIG-2013-073 │ 7
Finding



                 planner personnel clarified that their focus was shortages and backorders, not identifying
                 parts with excess DLA inventory. The ILP supply planner personnel do not have a process
                 to identify excess inventory, unless there is a pending purchase request or contract.9 DLA
                 Land and Maritime should review its inventory and develop a drawdown10 plan to use
                 excess HMMWV repair parts to avoid unnecessary costs for the final option year of the ILP
                 contract and future support contracts.

                 Furthermore, DLA Land and Maritime did not consider consumption data from the ILP
                 program to assist in the management of HMMWV repair parts. The repair parts used
                 or consumed are expensed at the point of consumption and DLA does not record the
                 AMG-sourced repair parts in inventory or record the demand quantities of these parts in
                 its inventory system.11 Supply planners did not receive information about AMG-sourced
                 repair parts consumed through the ILP contract to support DLA’s management of its
                 HMMWV repair parts inventory; in addition, this consumption data is not captured as DLA
                 annual customer demands within DLA’s inventory system. Thus, supply planners are not
                 aware of total HMMWV parts usage, which would impact DLA’s ability to make informed
                 drawdown decisions. DLA should provide this consumption data to supply planners to
                 assist in the management of HMMWV repair parts.


                 Benefits of Inventory Reviews at Key
                                                                                                                Inventory
                 Decision Points                                                                             reviews at key
                 Inventory reviews at key contract decision points                                          contract decision
                 would provide opportunities for DLA to use its                                          points would provide
                                                                                                    opportunities for DLA to use
                 inventory on hand before purchasing parts through                                  its inventory on hand before
                 the ILP contract to reduce unnecessary costs. Key                                    purchasing parts through
                 decision points may include contract award, contract                                      the ILP contract to
                                                                                                          reduce unnecessary
                 modifications that activate repair parts, and execution
                                                                                                                  costs.
                 of contract option years.


                 Maximizing the Use of DLA-Owned Inventory at Contract Award
                 ILP program management officials could have maximized use of DLA inventory and
                 reduced unnecessary storage costs by reviewing inventory on hand before contract
                 award. At this key decision point, about 730 AMG first source repair parts were available
                 for DLA Land and Maritime officials to review.

                 	9	
                        According to the Supply Planning Branch Chief, once every 90 days there is an automated comparison of repair part
                        requirements with assets on hand. If assets on hand exceed requirements and a procurement is in process, the supply
                        planners receive a notification to review the situation.
                 	10	
                        “Drawdown” is defined as reduction. This term is commonly used in the military in situations when resources are reduced.
                 	11	
                        Enterprise Business System is DLA’s information technology used to manage its supply chains. It integrates DLA business
                        systems in areas such as procurement, demand and supply planning, and order fulfillment.



8 │ DODIG-2013-073
                                                                                                         Finding




                                                      Figure 2. DLA-Owned Vehicular Control Arm Available for Use
                                                                                        Source: DLA Distribution


For example, in November 2008, the vehicular control arm (NSN 2530-01-554-8336)
had more than 15,000 parts in DLA inventory, with an annual demand of 1,094 parts in
FY 2008. If DLA maintained 3 years of inventory for this part, 11,700 parts were in excess
as of November 2008. These excess parts were available at the start of the ILP contract
and remained in excess throughout the contract’s period of performance. Through the
ILP contract, AMG provided 7,437 of these parts to RRAD from October 2010 through
June 2012. Excess of more than 10,500 parts remained in the DLA vehicular control arm
inventory as of June 2012, and annual demand dropped to 565 parts. If ILP program
management officials had reviewed this part at key contract decision points like contract
award, DLA could have supplied RRAD with parts from their own inventory. Thus, DLA
could have used the $1.8 million worth of vehicular control arms purchased from AMG
from October 2010 through June 2012 to improve cash flow and reduce storage costs.
Before awarding a new contract, DLA should perform an inventory review to ensure DoD
maximizes the use of its own inventory.


Maximizing the Use of DLA-Owned Inventory at Activation
Inventory reviews only at the start of the contract would not be sufficient to decrease
DLA inventory and avoid unnecessary acquisition and storage costs. New commercial
support occurred when DLA activated the purchase of repair parts in response to new




                                                                                                DODIG-2013-073 │ 9
Finding



                 repair program requirements. For example, a modification activated more than 600 repair
                 parts to support Up-Armored HMMWV maintenance. For the 118 repair parts, if DLA had
                 reviewed inventory at key contract decision points like activation, DLA would have found
                 that 67 repair parts had excess DLA inventory at repair parts activation.

                 For example, DLA had no excess inventory of nonmetal hose assemblies (NSN 4720-01-
                 536-3061) at contract award. However, a year later, in October 2009, when DLA activated
                 the hose assembly on the ILP contract, DLA had accumulated excess hose assemblies of
                 more than 1,400 parts in their inventory. Instead of using this excess inventory to meet
                 RRAD maintenance requirements, DLA purchased more than 2,200 parts from AMG. DLA
                 could have used about $657,000 of its own inventory instead of purchasing it from AMG.
                 Before issuing modifications that add new program requirements, DLA should perform
                 an inventory review to ensure that DoD maximizes the use of its own inventory.


                 Maximizing the Use of DLA-Owned Inventory at Contract Option Years
                 Inventory reviews at contract award and activation modifications would not be sufficient
                 to decrease DLA inventory and avoid unnecessary acquisition and storage costs. Contract
                 option years reengaged the contractor to provide parts and presented another opportunity
                 for DLA to conduct inventory reviews to decrease DLA inventory and avoid unnecessary
                 acquisition and storage costs.

                 For example, DLA had no excess inventory of stabilizer bars (NSN 2510-01-554-4726) at
                 contract award. However, by January 2010, when DLA exercised Option Year 1, DLA had
                 more than 2,500 stabilizer bars in inventory beyond 3-years of operating stock. Instead
                 of using these parts to meet the RRAD maintenance requirements, DLA purchased more
                 than 5,800 parts through the ILP contract. DLA continued to maintain excess inventory at
                 the next two contract option year decision points. DLA could have used about $350,000
                 of its own inventory instead of purchasing this part from AMG. DLA should perform an
                 inventory review before exercising contract option years to ensure that DoD maximizes
                 the use of its own inventory.


                 Use of Existing Inventory Will                                      Specifically, as
                                                                                   of June 2012, DLA
                 Improve DoD Cash Flow                                             had $9.7 million of
                                                                                excess inventory for the
                 A goal of the ILP program was to reduce DoD
                                                                               118 repair parts available
                 inventory and increase DoD cash flow. This goal was             for use on its current
                 not fully achieved because of the lack of inventory              ILP contract and for
                                                                                    future contracts.
                 reviews to determine when to drawdown excess and




10 │ DODIG-2013-073
                                                                                                                      Finding



begin commercial support. Specifically, as of June 2012, DLA had $9.7 million of excess
inventory for the 118 repair parts available for use on its current ILP contract and for future
contracts. By holding inventory instead of using it, DLA will incur unnecessary storage
costs; however, we did not include these storage costs when calculating excess inventory.
Also, DLA could make more informed drawdown decisions to decrease inventory costs by
providing supply planners with consumption data for all its HMMWV repair parts.

The U.S. Army 2010 Tactical Wheeled Vehicle Strategy indicates the need to maintain
HMMWVs for the next 20 years. DLA plans to continue its support through performance-
based logistics agreements, according to the ILP contracting officer. We anticipate DLA
inventory levels for repair parts to increase with the planned reduction and withdrawal
of U.S. forces from Afghanistan by the end of 2014. Monitoring these inventory levels
will improve DoD cash flow and allow DLA to provide repair parts without unnecessary
purchases and storage costs. In supporting future HMMWV maintenance requirements,
DLA has the opportunity to remedy its excess inventory levels, avoid unnecessary future
commercial purchases and increase efficiencies given the constraints of the current
fiscal environment.




                              U.S. Soldiers with the 118th Military Police Company (Airborne) patrol their area of responsibility
                                                                  Source: U.S. Air Force photo by Staff Sgt. Stephany D. Richards

                                                                                                           DODIG-2013-073 │ 11
Finding



                 Management Comments to the Finding and Our
                 Response
                 A summary of the comments from the Deputy Director, DLA Logistics Operations, on the
                 finding follow, with our response. See Appendix C for DLA management comments to the
                 draft report.


                 Comments
                 Defense Logistics Agency Comments
                 The Deputy Director, DLA Logistics Operations, agreed that there are opportunities for
                 improvement in the ILP program and also acknowledged the positive financial impact the
                 program has achieved for the DoD in the past few years. He stated that the ILP program
                 already provided the DoD over 50 million items to support recapitalization and reset
                 HMMWV production lines, and the ILP program saved DoD $8 million in operation costs
                 and additional manpower costs.


                 Our Response
                 Although the Deputy Director, DLA Logistics Operations, identified the merits and positive
                 impact of the ILP program to the DoD, this report identified areas of improvement for
                 DLA HMMWV repair parts inventory management and did not address efficiencies of the
                 U.S. Army’s recapitalization and reset HMMWV production lines.


                 Recommendations, Management Comments, and Our
                 Response
                 Revised Recommendation Numbering
                 We renumbered the draft recommendations from A.1, A.2.a, A.2.b, and A.2.c, to
                 recommendations 1, 2.a, 2.b, and 2.c.


                 Recommendation 1
                 We recommend that the Director, Defense Logistics Agency, issue guidance to require
                 periodic inventory reviews of Defense Logistics Agency-owned inventory used in
                 performance-based logistics agreements at award of each contract, issuance of
                 modifications that add new program requirements, and exercise of option years.




12 │ DODIG-2013-073
                                                                                                  Finding



Comments
Defense Logistics Agency Comments
The Deputy Director, DLA Logistics Operations, agreed, and stated that DLA would issue
guidance that ensured maximum use of DLA inventory.


Our Response
Comments from the Deputy Director, DLA Logistics Operations, were responsive, and the
actions met the intent of the recommendation. No further comments are required.


Recommendation 2
We recommend that the Director, Defense Logistics Agency, direct the Commander,
Defense Logistics Agency Land and Maritime, to:

        a.	 perform periodic inventory reviews of Defense Logistics Agency-owned
           High Mobility Multipurpose Wheeled Vehicle repair parts on the Integrated
           Logistics Partnership contract,

        b.	 develop a drawdown plan for the excess inventory identified and incorporate
           the plan into the final option year of the Integrated Logistics Partnership
           contract and any future High Mobility Multipurpose Wheeled Vehicle support
           contracts at Army maintenance depots, and

        c.	 provide all High Mobility Multipurpose Wheeled Vehicle repair part
           consumption data to supply planners.

Comments
Defense Logistics Agency Comments
The Deputy Director, DLA Logistics Operations, agreed with the recommendations. He
stated that DLA Land and Maritime would perform a quarterly review of DLA-managed
items that were contractor first source and DLA over procured, and renegotiate with AMG
to determine first source for these parts. In addition, he stated that by April 30, 2013,
DLA Land and Maritime will develop a drawdown plan to use for future HMMWV support
contracts at Army maintenance depots. Lastly, the Deputy Director stated that supply
planners were now provided with ILP consumption data in the form of an email.


Our Response
Comments from the Deputy Director, DLA Logistics Operations, were responsive, and the
actions met the intent of the recommendations. No further comments are required.



                                                                                        DODIG-2013-073 │ 13
Appendix A




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from March 2012 through March 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on our audit objectives.
                 We believe that the evidence obtained provides a reasonable basis for our finding and
                 conclusions based on our audit objectives.


                 Interviews and Documentation
                 During April and May 2012, we met with representatives from the Office of the Assistant
                 Secretary of the Army (Acquisition, Logistics, and Technology); DLA Land and Maritime,
                 Distribution, and Acquisition; and TACOM.

                 We conducted a site visit to RRAD, Texarkana, Texas in August 2012. During this site
                 visit, we interviewed the:

                          •	 contracting officer representative for contract SPM7LX-09-D-9001,

                          •	 DLA Distribution Depot personnel,

                          •	 RRAD Material Management Division and Production Management Division
                            personnel, and

                          •	 AMG personnel.

                 In August 2012, at DLA Distribution Red River, Texas and DLA Distribution Susquehanna,
                 Pennsylvania, we observed stored repair parts that were also part of DLA’s ending
                 inventory for June 2012.

                 We reviewed the HMMWV recapitalization performance-based agreement, the business
                 case analysis, the ILP acquisition plan, contract SP0750-06-D-9711, and contract
                 SPM7LX-09-D-9001 and contract modifications. We reviewed the Federal Acquisition
                 Regulations, DoD Regulations and DLA policies for guidance related to supply chain and
                 inventory management.




14 │ DODIG-2013-073
                                                                                             Appendix A



HMMWV National Stock Numbers Reviewed
We obtained June 2012 DLA inventory balances from the DLA Office of Operations
Research and Resource Analysis for HMMWV repair parts on the ILP contract; a list of
repair parts on the ILP contract as of June 2012; and the RRAD consumption data for
the ILP contract from October 2010 through June 2012. We then applied the following
criteria to filter repair parts with potential excess inventory:

         •	 sales unit of measure with “each,”

         •	 AMG was designated as first source,

         •	 AMG provided 80 percent or greater of FY 2011 DLA annual customer
            demands and RRAD consumption data, and

         •	 DLA’s inventory exceeded 3 years of FY 2011 DLA annual customer demands.

Applying the above criteria resulted in 118 repair parts with a total ending inventory of
$11.1 million. We reviewed these 118 repair parts along with ILP contract requirements
to identify excess that could be used to satisfy current and future requirements.


Use of Computer-Processed Data
We relied on computer-processed data from DoD, DLA, and AMG. We obtained data from
the DoD Electronic Mall system and the DLA Office of Operations Research and Resource
Analysis to identify the universe of DLA-managed HMMWV repair parts, inventory levels,
demand, and pricing data. In addition, we used consumption data obtained from AMG
along with data from Haystack Gold, a commercial system, to identify DLA purchases
from AMG. We determined that the computer-processed data was reliable as a result of
visits to the DLA Distribution Red River, Texas, and the DLA Distribution Susquehanna,
Pennsylvania, where we compared data to inventory stored on site. We did not find
material errors or significant differences in the data. Therefore, we determined that the
data was sufficiently reliable for the purposes of this report.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the Department
of Defense Inspector General (DOD IG) have issued five reports discussing DoD spare
part inventory levels and supply chain management. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DOD IG reports can be
accessed at http://www.dodig.mil/audit/reports.




                                                                                        DODIG-2013-073 │ 15
Appendix A



                 GAO
                 Report No. GAO-12-493, “Defense Inventory: Actions Underway to Implement
                 Improvement Plan, but Steps Needed To Enhance Efforts,” May 3, 2012

                 Report No. GAO-11-569, “Defense Logistics: DOD Needs to Take Additional Actions To
                 Address Challenges in Supply Chain Management,” July 28, 2011

                 Report No. GAO-10-469, “Defense Inventory: Defense Logistics Agency Needs to Expand
                 on Efforts to More Effectively Manage Spare Parts,” May 11, 2010


                 DOD IG
                 Report No. DODIG-2012-004, “Changes Are Needed to the Army Contract with Sikorsky
                 To Use Existing DoD Inventory and Control Costs at the Corpus Christi Army Depot,”
                 November 3, 2011

                 Report No. D-2011-061, “Excess Inventory and Contract Pricing Problems Jeopardize the
                 Army Contract with Boeing to Support the Corpus Christi Army Depot,” May 3, 2011




16 │ DODIG-2013-073
                      Appendix B
                      Excess DLA-Owned Inventory for 118 AM General, LLC, First Source Repair Parts
                      The following chart presents excess DLA-owned inventory for 118 AM General, LLC (AMG) first source repair parts that the audit team reviewed.
                      AMG provided these parts through the ILP contract to support RRAD HMMWV reset and recapitalization programs. The chart includes
                      information on RRAD consumption, DLA inventory and demand, and excess inventory calculations from October 2010 through June 2012.
                      Overall, the 118 repair parts represented DLA inventory valued at $11.1 million, with $9.7 million in excess of 3 years’ operating stock.

                                                                                      RRAD           RRAD                   DLA                                           Excess
                                                                                                                                     DLA       Total DLA
                                                                                  Consumption Consumption      DLA Unit   Annual                            Excess       Value at
                          National Stock                                                                                          Inventory   Inventory
                                                        Item Name                   Quantity        Value       Price    Customer Quantity                 Quantity 12 DLA Unit
                             Number                                              (October 2010 (October 2010 (June 2012) Demand (June            Value
                                                                                                                                       2012) (June 2012) (June 2012)      Price
                                                                                  to June 2012) to June 2012)             FY 2011                                      (June 2012)
                          2510011856647 BRACKET,CROSSMEMBER                                 2,194           $119,013            $51.03              27           1,309         $66,798             1,228        $62,665
                          2510011877033 FRAME SECTION,STRUC                                 3,558             150,895            41.28              44             811           33,478              679          28,029
                                        INSULATION PANEL,
                          2510015479911 VEHICULAR CAB                                       1,873              55,731            37.22              11              83            3,089                50           1,861
                          2510015482055 SHELL,CARGO,VEHICUL                                   113             150,925         1,561.48               6             211         329,472               193        301,366
                          2510015486641 PANEL, BODY, VEHICULAR                                320                  989             4.19             27             138              578                57             239
                          2510015544726 BAR,STABILIZER                                      5,806             484,713           110.66                -          4,171         461,563             4,171        461,563
                          2510015663852 FRAME SECTION,STRUC                                 2,886              76,437            25.61              28             251            6,428              167            4,277
                          2530011856714 PISTON,DISC BRAKE                                   2,343              20,910              7.75           130            1,466           11,362            1,076            8,339
                          2530014732724 CYLINDER, HYDRAULIC                                 3,086             238,325            85.92            100              420           36,086              120          10,310
                          2530015548270 ARM,CONTROL,VEHICUL                                 7,110          1,734,363            202.79            272            9,532       1,932,994             8,716      1,767,518
                                        ARM, CONTROL,
                          2530015548309 VEHICULAR                                           2,225             236,075            85.31            404            8,363         713,448             7,151        610,052
                      1
                          2530015548315 ARM,CONTROL,VEHICUL                                 2,210             234,208            86.01              89           8,395         722,054             8,128        699,089

                      	12	
                             We define excess inventory as inventory exceeding 3 years of FY 2011 DLA annual customer demand quantities. DLA annual customer demand represents all parts requisitioned from DLA for that
                             fiscal year. This does not include any contractor provided parts, such as parts provided by AMG through the ILP contract.
DODIG-2013-073 │ 17




                                                                                                                                                                                                                            Appendix B
18 │ DODIG-2013-073




                                                                                                                                                             Appendix B
                                                               RRAD           RRAD                   DLA                                          Excess
                                                                                                              DLA       Total DLA
                                                           Consumption Consumption      DLA Unit   Annual                             Excess     Value at
                      National Stock                                                                       Inventory   Inventory
                                          Item Name          Quantity        Value       Price    Customer Quantity                  Quantity    DLA Unit
                         Number                                                                                           Value
                                                          (October 2010 (October 2010 (June 2012) Demand (June                     (June 2012)    Price
                                                                                                                2012) (June  2012)
                                                           to June 2012) to June 2012)             FY 2011                                     (June 2012)
                                    ARM, CONTROL,
                      2530015548336 VEHICULAR                    7,437      1,813,830     203.20       565      12,242    2,487,574     10,547   2,143,150
                      2530015660133 DRAG LINK,STEERING           2,816        515,222     223.02        33         437      97,460         338      75,381
                      2530015670400 ADAPTER,CALIPER,DIS          2,706        134,270      77.92        31         121       9,428          28       2,182
                      2540011853110 ARMOR,SUPPLEMENTAL,            210          5,328      64.77         7       2,045     132,455       2,024     131,094
                                    VENTILATOR,AIR
                      2540012765935 CIRCULATOR                     287          2,760      11.16        34         152       1,696          50        558
                      2540014729914 INSULATION,THERMAL,          3,043        291,437     127.41        65         259      32,999          64       8,154
                      2540014730369 INSULATION,THERMAL,          3,066        299,925     112.99        22         171      19,321         105      11,864
                      2540015049511 INSULATION,THERMAL,          1,452          3,009      18.77         2          87       1,633          81       1,520
                      2540015204910 GUARD,SPLASH,VEHICU          2,559         70,056     453.00          -         57      25,821          57      25,821
                      2540015602757 INSULATION,THERMAL,          1,974        103,416      65.58        84         776      50,890         524      34,364
                      2540015602873 INSULATION,THERMAL,          2,965         85,075      34.00       287         992      33,728         131       4,454
                      2540015609361 INSULATION,THERMAL,          1,712        159,086     114.98       105         547      62,894         232      26,675
                      2540015609370 INSULATION,THERMAL,          1,978         90,936      58.89       103         752      44,285         443      26,088
                      2590015390647 BRACKET,VEHICULAR C            661          7,148      12.78         7         171       2,185         150       1,917
                      2590015390673 BRACKET,VEHICULAR C            735          7,947      12.72         8         163       2,073         139       1,768
                      2590015479874 BRACKET,VEHICULAR C            501          8,465      19.71         1          89       1,754          86       1,695
                      2590015657332 BRACKET,VEHICULAR C          3,250          5,695       2.03          -        890       1,807         890       1,807
                      2590015658851 BRACKET,VEHICULAR C          2,732          6,262       2.71          -         45         122          45        122
                      2590015658855 BRACKET,VEHICULAR C          2,839          6,720       6.20          -         57         353          57        353
                      2590015659341 BRACKET,VEHICULAR C          2,641          5,223       2.68         5         156         418         141        378
                      2590015659510 BRACKET,VEHICULAR C          2,709          7,270       3.19         2         165         526         159        507
                                                                RRAD           RRAD                   DLA                                          Excess
                                                                                                               DLA       Total DLA
                                                            Consumption Consumption      DLA Unit   Annual                             Excess     Value at
                      National Stock                                                                        Inventory   Inventory
                                           Item Name          Quantity        Value       Price    Customer Quantity                  Quantity    DLA Unit
                         Number                                                                                            Value
                                                           (October 2010 (October 2010 (June 2012) Demand (June                     (June 2012)    Price
                                                                                                                 2012) (June  2012)
                                                            to June 2012) to June 2012)             FY 2011                                     (June 2012)
                                    BRACKET, DIFF COOLER
                      2590015662523 LINES, REAR                   2,990         10,326       3.08         5          37         114          22         68
                      2590015663013 BRACKET,VEHICULAR C           2,740         13,877       5.04         4         110         554          98        494
                      2590015663545 BRACKET,VEHICULAR C           2,700        591,498     252.52         9          50      12,626          23       5,808
                      2590015663551 BRACKET,VEHICULAR C           2,692        607,087     259.99         1          35       9,100          32       8,320
                      2590015663923 BRACKET, VEHICULAR C          2,779          6,129       2.32          -        251         582         251        582
                      2590015663934 BRACKET,VEHICULAR C           2,779        101,955      42.35         1          41       1,736          38       1,609
                                    TANK ASSEMBLY, FUEL
                      2910014473911 EXPANDED                      4,441      1,336,114     276.48       241       1,790     494,899       1,067     295,004
                      2940012852942 FILTER BODY,FLUID                20           505      222.92         1          44       9,808          41       9,140
                      2990015680722 HEAT SHIELD, EXHAUST          2,799        143,301      70.27         5          16       1,124           1         70
                      3020014322553 GEAR,SPUR                       214         11,338      48.92         5       6,812     333,243       6,797     332,509
                      3020014762701 GEAR, SPUR                      346         28,628     101.04         7       2,588     261,492       2,567     259,370
                      4130015367685 FILTER-DRIER,REFRIG           2,916        585,113     234.92         8       1,429     335,701       1,405     330,063
                      4130015967104 CONDENSER,REFRIGERA           1,390      1,751,410     951.90          -          1         952           1        952
                      4130015967206 CONDENSER,REFRIGERA           1,522      1,917,731     951.90          -          1         952           1        952
                      4710013582127 TUBE ASSEMBLY,METAL           3,259          8,365       3.10       247       2,411       7,474       1,670       5,177
                      4710014131360 TUBE ASSEMBLY,METAL           4,383         56,648      13.30       241      10,175     135,328       9,452     125,712
                      4710014954268 TUBE ASSEMBLY,METAL             142          5,987      50.98         7         438      22,329         417      21,259
                      4710014954302 TUBE ASSEMBLY,METAL             108          6,128      99.20         7         168      16,666         147      14,582
                      4710015550263 TUBE ASSEMBLY,METAL             545        121,228     280.41        55         236      66,177          71      19,909
                      4710015657219 TUBE,BENT,METALLIC            2,819         90,025      33.39         1          62       2,070          59       1,970
                      4710015657558 TUBE ASSEMBLY,METAL           2,900         33,197      12.12        13         694       8,411         655       7,939
                      4710015657659 TUBE,BENT,METALLIC            2,850         43,276      23.65         2          24         568          18        426
DODIG-2013-073 │ 19




                                                                                                                                                              Appendix B
20 │ DODIG-2013-073




                                                                                                                                                             Appendix B
                                                               RRAD           RRAD                   DLA                                          Excess
                                                                                                              DLA       Total DLA
                                                           Consumption Consumption      DLA Unit   Annual                             Excess     Value at
                      National Stock                                                                       Inventory   Inventory
                                          Item Name          Quantity        Value       Price    Customer Quantity                  Quantity    DLA Unit
                         Number                                                                                           Value
                                                          (October 2010 (October 2010 (June 2012) Demand (June                     (June 2012)    Price
                                                                                                                2012) (June  2012)
                                                           to June 2012) to June 2012)             FY 2011                                     (June 2012)
                      4710015657666 TUBE,BENT,METALLIC           2,829         43,936      17.95         2          49         880          43        772
                      4710015658119 TUBE,BENT,METALLIC           2,829         53,144      21.68         4          40         867          28        607
                      4710015659209 TUBE ASSEMBLY,METAL          2,907         26,516       9.12         8         609       5,554         585       5,335
                      4710015659639 TUBE ASSEMBLY,METAL          2,915         20,959       7.55        13         644       4,862         605       4,568
                      4710015659736 TUBE ASSEMBLY,METAL          2,909         26,980       9.76        16         629       6,139         581       5,671
                      4710015661567 TUBE ASSEMBLY,METAL          2,922         11,782       3.95        24         575       2,271         503       1,987
                      4710015661672 TUBE ASSEMBLY,METAL          2,975         19,359       7.60        24          85         646          13         99
                      4720014963717 HOSE ASSEMBLY,NONME            316         20,385      76.45        28         668      51,069         584      44,647
                      4720015363061 HOSE ASSEMBLY,NONME          2,262        822,084     433.84        14       1,797     779,610       1,755     761,389
                      4720015370552 HOSE ASSEMBLY,NONME            605         10,050      19.85        76       1,580      31,363       1,352      26,837
                      4720015518752 HOSE,PREFORMED               1,354         46,290      45.15          -        218       9,843         218       9,843
                      4720015587665 HOSE ASSEMBLY,NONME          3,022        121,181      50.59       157       1,332      67,386         861      43,558
                      4720015658135 GUARD, HOSE-TUBING           2,838          9,113       5.10        83         403       2,055         154        785
                      4730013994206 ELBOW,PIPE TO HOSE           2,825         20,932      23.46        17          58       1,361           7        164
                      4730014785151 CLAMP,HOSE                   6,165         23,248       4.57       474       4,903      22,407       3,481      15,908
                      4730015280977 ELBOW,TUBE TO HOSE           1,102         11,243      19.45        18         485       9,433         431       8,383
                      4820014957582 VALVE,FLOW CONTROL             330          4,728      92.29        39         186      17,166          69       6,368
                      5307014725614 STUD,PLAIN                   2,774         33,934      15.17        32         533       8,086         437       6,629
                      5330012708317 GASKET                         323          6,747      22.41        24         120       2,689          48       1,076
                      5330014091981 SEAL,NONMETALLIC CH         27,650         23,134       0.95      2,396     37,651      35,768      30,463      28,940
                      5330014200705 SEAL,NONMETALLIC CH          2,879          1,615       1.00        77         833         833         602        602
                      5330015480890 SEAL,NONMETALLIC SP            180          2,898      18.41         6         121       2,228         103       1,896
                                                               RRAD           RRAD                   DLA                                          Excess
                                                                                                              DLA       Total DLA
                                                           Consumption Consumption      DLA Unit   Annual                             Excess     Value at
                      National Stock                                                                       Inventory   Inventory
                                          Item Name          Quantity        Value       Price    Customer Quantity                  Quantity    DLA Unit
                         Number                                                                                           Value
                                                          (October 2010 (October 2010 (June 2012) Demand (June                     (June 2012)    Price
                                                                                                                2012) (June  2012)
                                                           to June 2012) to June 2012)             FY 2011                                     (June 2012)
                                    SEAL, NONMETALLIC
                      5330015548439 CHANNEL                        850          8,939      15.65        84         410       6,417         158       2,473
                      5330015800176 SEAL,PLAIN ENCASED          11,914         85,916       9.39        72         544       5,108         328       3,080
                      5340011867173 BRACKET,ANGLE                  930          6,898       9.34        28       2,158      20,156       2,074      19,371
                      5340012097767 PLATE,MENDING                4,983         15,796       4.26       312       1,000       4,260          64        273
                      5340012124714 BRACKET,ANGLE                3,115          4,339       1.31       256       7,438       9,744       6,670       8,738
                      5340012546543 BRACKET,MOUNTING               300          3,407      16.49         6       1,422      23,449       1,404      23,152
                      5340014566557 STRAP,RETAINING             17,013         11,068       0.54       314       2,864       1,547       1,922       1,038
                      5340014570003 BRACKET,MOUNTING             2,566         20,043       7.67        15         602       4,617         557       4,272
                      5340014847646 BRACKET,MOUNTING             1,710         20,528      12.03       186       1,000      12,030         442       5,317
                      5340014885619 BRACKET,ANGLE                1,008         10,834       9.60        11          36         346           3         29
                      5340015304739 BRACKET,MOUNTING               575          2,238       3.78       106       6,190      23,398       5,872      22,196
                      5340015363003 PLATE,RETAINING,SEA            521         72,207     152.93         3         497      76,006         488      74,630
                      5340015363290 BRACKET,MOUNTING             2,017         34,920      19.14        58       1,200      22,968       1,026      19,638
                      5340015364120 BRACKET,DOUBLE ANGL             86          1,073      32.72          -        501      16,393         501      16,393
                      5340015480334 BRACKET,MOUNTING             1,444         19,189      15.37         5         198       3,043         183       2,813
                      5340015480979 BRACKET,MOUNTING             1,400         17,596      15.30         5         172       2,632         157       2,402
                      5340015482936 PLATE,MOUNTING                  13            69        6.62         2         207       1,370         201       1,331
                      5340015486639 BRACKET,MOUNTING               225          4,308      23.15        17          75       1,736          24        556
                      5340015487211 BRACKET,MOUNTING             1,157         16,485      16.77          -         98       1,643          98       1,643
                      5340015546161 BRACKET,MOUNTING               688        222,572     400.76         6          93      37,271          75      30,057
                      5340015550341 COVER,ACCESS                 3,160          5,948       2.14       285       4,228       9,048       3,373       7,218
DODIG-2013-073 │ 21




                                                                                                                                                             Appendix B
22 │ DODIG-2013-073




                                                                                                                                                                                        Appendix B
                                                                                         RRAD           RRAD                   DLA                                          Excess
                                                                                                                                        DLA       Total DLA
                                                                                     Consumption Consumption      DLA Unit   Annual                             Excess     Value at
                          National Stock                                                                                             Inventory   Inventory
                                                          Item Name                    Quantity        Value       Price    Customer Quantity                  Quantity    DLA Unit
                             Number                                                                                                                 Value
                                                                                    (October 2010 (October 2010 (June 2012) Demand (June                     (June 2012)    Price
                                                                                                                                          2012) (June  2012)
                                                                                     to June 2012) to June 2012)             FY 2011                                     (June 2012)
                          5340015550346 COVER,ACCESS                                       2,848          5,355       2.21       123         457       1,010          88         194
                          5340015648809 BRACKET,MOUNTING                                   2,162         54,231      13.85         3         169       2,341         160        2,216
                          5342012779102 BRACKET,REAR AXLE                                    149          1,569      19.76         4         949      18,752         937      18,515
                          5360015663298 SPRING,HELICAL,EXTE                                5,671         23,107       3.87        25         140         542          65         252
                          5365012644023 SPACER,SLEEVE                                      2,590         19,299       7.89       227       5,289      41,730       4,608      36,357
                          5365014560730 SPACER,RING                                        6,217         36,980       7.11       539       4,183      29,741       2,566      18,244
                          5365014565637 SPACER,PLATE                                         146          1,418      11.72         2         518       6,071         512        6,001
                          5365015394098 SPACER,PLATE                                       5,440           771        0.14        63       6,067         849       5,878         823
                          5365015480905 SPACER,PLATE                                           8           175       27.42          -        120       3,290         120        3,290
                          5365015484284 SPACER,STRAIGHT                                    1,055          1,089       1.33         2         413         549         407         541
                          5365015485005 SPACER,PLATE                                          23           502       46.32          -        118       5,466         118        5,466
                          5365015557102 SPACER,PLATE                                       3,300         39,272      14.87          -      2,788      41,458       2,788      41,458
                          5925003331584 CIRCUIT BREAKER                                    3,042         85,198      34.98       323       4,361     152,548       3,392     118,652
                          6150015397293 CABLE ASSEMBLY,SPEC                                2,457         10,919      10.82         5       1,413      15,289       1,398      15,126
                          6150015486004 CABLE ASSEMBLY,SPEC                                  446          5,248      13.83         5         317       4,384         302        4,177
                          6150015486007 WIRING HARNESS,BRAN                                1,735         35,821      23.77        27         102       2,425          21         499
                          6150015557011 WIRING HARNESS,BRAN                                1,982        162,148      99.93        66         284      28,380          86        8,594
                          6150015557025 CABLE ASSEMBLY,SPEC                                1,228          5,204       5.39        35         936       5,045         831        4,479
                          6350015546612 CONTROL,ALARM                                        340        293,280    1,037.84        7         156     161,903         135     140,108
                          6350015547818 CONTROL,ALARM                                        310        253,482    1,003.10        8         203     203,629         179     179,555
                      1
                       3Total 13                                             118         301,066    $17,581,234                          196,372 $11,119,780     165,994   $9,724,304

                      	 13	
                              The total dollar values do not add due to rounding.
                                         Appendix C




Appendix C
Defense Logistics Agency Comments




                                    DODIG-2013-073 │ 23
Appendix C




24 │ DODIG-2013-073
                                                                                                                Appendix C




           DEFENSE LOGISTICS AGENCY RESPONSE TO DRAFT REPORT
     USE OF DEFENSE LOGISTICS AGENCY EXCESS PARTS FOR HIGH MOBILITY                                      Final Report
     MULTIPURPOSE WHEELED VEHICLE DEPOT REPAIRS WILL REDUCE COSTS
                     (PROJECT NO. D2012- D000JA-0102.000)                                                 Reference


The Defense Logistics Agency (DLA) concurs with recommendations outlined in the subject DoD IG
draft report issued on March 7, 2013. The following is a plan of action addressing each
recommendation.

Recommendation A.1: The Director, DLA, should issue guidance to require periodic inventory              Renumbered as
reviews of DLA-owned inventory used in performance based logistics agreement at award of each
contract, issuance of modifications that add new program requirements, and exercise of option years.   Recommendation 1

Response: DLA concurs with recommendation. DLA will issue internal guidance to ensure DLA
inventory is used to the “maximum extent".

Recommendation A.2.a: We recommend that the Director, Defense Logistics Agency, direct the               Renumbered as
Commander, Defense Logistics Agency Land and Maritime to: Perform periodic inventory reviews of
                                                                                                       Recommendation 2.a
Defense Logistics Agency-owned-High Mobility Multipurpose Wheeled Vehicle repair parts on the
Integrated Logistics Partnership (ILP) contract.

Response: DLA concurs with the recommendation. On a quarterly basis, DLA Land and Maritime will
review the list of DLA managed items that are 1st sourced to the ILP Vendor (AMG) and for which
DLA is over procured. This list will be shared with AMG and negotiations will occur to see if we can
switch the 1st source of supply until DLA can draw down some of the stock. The Contract Management
Plan will be updated by 30 April 2013 to include this control.

Recommendation A.2.b: We recommend that the Director, Defense Logistics Agency, direct the               Renumbered as
Commander, Defense Logistics Agency Land and Maritime to: Develop a drawdown plan for the
                                                                                                       Recommendation 2.b
excess inventory identified and incorporate the plan into the final option year of the Integrated
Logistics Partnership contract and any future High Mobility Multipurpose Wheeled Vehicle support
contracts at Army maintenance depots.

Response: DLA concurs with the recommendation. DLA Land and Maritime will develop a drawdown
plan by 30 April 2013 and will include in our Contract Management Plan by the same 30 April 2013.
This revised Contract Management Plan will also be a key part of any future HMMWV contracts.

Recommendation A.2.c: We recommend that the Director, Defense Logistics Agency, direct the               Renumbered as
Commander, Defense Logistics Agency Land and Maritime to: Provide all High Mobility                    Recommendation 2.c
Multipurpose Wheeled Vehicle repair part consumption data to supply planners.

Response: DLA concurs with the recommendation. The consumption data is now provided to the entire
ILP planning community including the supply planners. The evidence will be in the form of an E-mail
that will include the supply planners as addressees.




                                                                                                           DODIG-2013-073 │ 25
Acronyms and Abbreviations



                 Acronyms and Abbreviations
                         AMG AM General, LLC
                          DLA Defense Logistics Agency
                      HMMWV High Mobility Multipurpose Wheeled Vehicles
                           ILP Integrated Logistics Partnership
                         RRAD Red River Army Depot
                       TACOM U.S Army TACOM Life Cycle Management Command




26 │ DODIG-2013-073
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
